                Securities and Exchange
                     Commission

                      Office of Inspector General


                               Executive Summary
During this reporting period (April 1 to September 30, 2000) the Office of Inspector General
(Office) issued eight audit reports, three investigative memoranda on management issues, and
one audit memorandum. These documents focused on the Commission’s Investor Education and
Assistance Program, the Office of Municipal Securities, the preparation of no-action and
interpretive letters in the Division of Investment Management, conversion of the Commission’s
payroll to the Department of Interior, Commissioners’ travel, the clearance process (for exiting
employees), audit recommendation follow-up procedures, security cameras, implementation of
ethics rules (gift giving), travel vouchers, and administrative practices in the Atlanta District
Office. The Audit Program section below describes this work further.
Nineteen investigations were closed during the period (one of which was a joint investigation
with the Federal Bureau of Investigation). Four subjects were referred to the Commission; five
cases were referred to the Department of Justice. Also during the period, the subject of one
investigation was terminated, while the subject of another investigation resigned. In addition,
one employee resigned prior to completion of the investigation, and one contract employee was
removed during an investigation. Seven subjects, referred to Commission management during
this and prior periods, are awaiting disposition. The Investigation Program section below
describes the significant cases further.
In a previous period, we reported the custody of sensitive information as a significant problem.
Since then management has established a task force to develop corrective actions, issued an
agency-wide policy, and hired a consultant to assist in a comprehensive review of security.
The Commission recently received the security consultant’s final report. The task force is now
reviewing the recommendations, assessing inherent risks in Commission organizational units,
and developing an implementation plan. The task force’s work is scheduled for completion in
November 2000. At this point, we believe that most Commission organizations are waiting for
additional guidance from the task force before fully implementing the new Commission policy on
sensitive information.
                                                                                       Page      2

We also previously identified information resources management as a significant problem.
Although the Commission has taken many positive steps to improve the management of
information (e.g., restructuring the Office of Information Technology; integrating information
technology planning, budgeting, and performance measurement; linking plans and budgets to
the Commission’s mission and strategic direction) information resources management, as a
whole, remains a significant concern.
Although we have not performed an audit to evaluate the effectiveness of these initiatives, we
believe that the Commission is making progress in achieving full compliance with the
requirements of the Clinger-Cohen Act. However, many pending management actions need to be
completed to implement the operational, procedural, and policy recommendations made in prior
audits. We intend to maintain our oversight of the Commission’s management of information
resources (including piloting a new qualitative risk assessment methodology to identify
information technology risks).
Another previously reported significant problem involves lack of adequate controls over the
collection of fees. Since this problem was first reported, statutory changes have eliminated
many of the fees most at risk. Moreover, Commission management has made significant
progress in correcting the most serious weaknesses. However, final corrective actions are
awaiting the implementation of a new computerized filing fee collection system.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                             Audit Program
The Office issued eight audit reports, three investigative memoranda on management issues, and
one audit memorandum during the reporting period. These documents contained a total of 41
recommendations, which are further described below. Management concurred with most of the
recommendations.


INVESTOR EDUCATION AND ASSISTANCE (AUDIT 288)
The Commission’s Investor Education and Assistance Program (IEAP) educates investors,
processes investor complaints, and analyzes investor complaints and inquiries (to provide
intelligence to several Commission programs). The Office of Investor Education and Assistance
(OIEA) in Washington, and investor specialists in most regional and district offices, conduct the
program. In recent years, the program has experienced a significant increase in the volume of
investor complaints and inquiries, without a corresponding increase in staffing.
Our audit objective was to evaluate the effectiveness and efficiency of the IEAP. We found that,
overall, OIEA and the field offices were successful in achieving the investor education objective.

S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2000
                                                                                        Page     3

 Nonprofit investor education organizations we surveyed believed that the program’s educational
activities (e.g., Investor Town Meetings, educational pamphlets, and web site) are very effective
and that educational information is available to investors. Information is also provided to
investors in while responding to investor complaints and inquiries. In addition, OIEA recognizes
the challenge to reach and educate financially illiterate or unsophisticated investors who will
have increased responsibility for their own financial future.
However, we identified several obstacles to fully achieving the complaint processing and
intelligence analysis objectives. The volume of investor complaints and inquiries increased
108% from fiscal years 1993 to 1999. Although no additional staff was budgeted for this
process, OIEA took several steps to accommodate the increased workload. Additional changes
in processing investor complaints and inquiries would further increase the productivity of IEAP
staff. In addition, lack of central policy and direction between OIEA and the field offices created
uneven processing of investor complaints and inquiries, analysis of intelligence, and services to
investors. Finally, the current tracking and management information system is outdated and
needs to be rethought.
We recommended that complaint processing and intelligence analysis be reengineered with a
focus on uniform and effective policy, procedures, performance measures, and information
systems. OIEA and the field offices have already initiated several actions to improve the
efficiency of the complaint and inquiry process and we commended them for their proactive
efforts.


OFFICE OF MUNICIPAL SECURITIES (AUDIT 315)
The Office of Municipal Securities (OMS) was established in March 1995 to provide
coordination and expertise on the varied initiatives related to the municipal securities market
including those related to enforcement, market regulation, disclosure, and transparency. OMS
also serves as a clearinghouse of Commission initiatives related to municipal debt, and provides
assistance in developing Commission initiatives in response to this expanding municipal debt
market.
Our audit objective was to evaluate the goals and operations of the office, and to identify
potential improvements. We reviewed available documentation about the office, and
interviewed officials from organizations inside and outside of the Commission. However, we
did not evaluate the propriety of specific judgments made by OMS concerning municipal
securities matters.
We found that the Office of Municipal Securities has generally carried out its mission
effectively. The office currently exists on a provisional basis, with a renewal decision made
annually since its creation in 1995. We recommended that the Commission reconsider its status
in light of the existing and anticipated municipal securities environment. Other
recommendations were related to office resources and enhancing awareness of the office.


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2000
                                                                                         Page     4

INVESTMENT MANAGEMENT NO-ACTION AND INTERPRETIVE
LETTERS (AUDIT 316)
The Division of Investment Management provides no-action relief and interpretations to
investment companies and advisers. No-action and interpretive letters provide the public with
informal interpretations of the federal securities laws and Commission rules, and offer
assurances that the staff would not recommend enforcement action as a result of proposed
transactions or actions. These letters represent a prospective method of promoting compliance
with the securities laws, and give the industry flexibility in conducting business while protecting
investors and reducing the regulatory burden on the industry.
The objective of this audit was to evaluate the effectiveness and efficiency of the Division’s
process for preparing, issuing, and tracking no-action and interpretive letters. We recommended
several improvements including: issuing and enforcing guidance for submitting requests;
developing and implementing formal timeframes for processing letters; distributing written
procedures to staff; and improving workload information. We also suggested that the Division
publish these letters on the Commission’s website.


PAYROLL CONVERSION (AUDIT 314)
The Commission’s prior payroll system was not year 2000 compliant, and imposed a substantial
administrative burden on the Commission. Consequently, the Commission converted to the
Department of Interior’s Federal Personnel/Payroll System (FPPS) on June 20, 1999. At the
same time, responsibility for payroll was transferred from the Office of the Comptroller to the
Office of Administrative and Personnel Management.
Our objective was to determine whether the conversion to FPPA system was effective, and
whether Commission payroll controls were properly implemented (we did not assess controls
administered by Interior). We found that the Office of Administrative and Personnel
Management had effectively coordinated the Commission’s conversion to the new payroll
system. Users generally felt that OAPM payroll staff were doing a good job, given resource
constraints, and were responsive to their needs. However, some Commission employees,
particularly supervisors and managers, had some difficulties in learning to use the new system.
In some cases, access controls had been compromised. We made several recommendations to
enhance access controls and customer service, including issuing guidance, providing training,
and establishing a help desk and web page.


COMMISSIONERS’ TRAVEL (AUDIT 319)
In 1998, the Office of Inspector General conducted audits of the Commissioners’ Travel (No.
280) and of Travel Upgrades (No. 281) at the request of the Subcommittee on National
Economic Growth, Natural Resources, and Regulatory Affairs of the House Committee on
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 31, 2000
                                                                                        Page     5

Government Reform and Oversight. We again reviewed the Commissioners’ Travel last year
(No. 294). This audit was a follow-up to the previous reviews.
The audit objective was to determine whether the trips were for official business, for reasonable
periods of time given the purpose of the trip, and that the expenses claimed were valid. We also
evaluated the Commission’s management controls over the official travel of its Commissioners.
We tested a judgment sample of 32 of the 102 Commissioner travel vouchers submitted and
processed between April 1, 1999 and March 31, 2000.
The results of our tests indicated that, with respect to the items reviewed, the Commissioners
complied in all material respects with relevant Commission policies and procedures.


ATLANTA DISTRICT OFFICE (AUDIT 321)
The Atlanta District Office assists the Southeast Regional Office in administering Commission
programs in Alabama, Florida, Georgia, Louisiana, Mississippi, North Carolina, Puerto Rico,
South Carolina, Tennessee, and the Virgin Islands. In carrying out its responsibilities, the office
exercises a broad range of financial and administrative functions, including maintaining time and
attendance records; procuring supplies and services; arranging for staff travel; maintaining an
inventory of property; and recording budgeted and actual expenditures of the office.
The Office of Inspector General conducted a limited audit of the financial and administrative
internal controls of the office. The purpose of the audit was to provide the Commission with
negative assurance1 that the internal controls were adequate, being implemented economically
and efficiently, and in compliance with Commission policies and procedures. The audit
procedures were limited to analyzing representations made by staff, reviewing supporting
documentation, and conducting some tests of transactions.
During the limited audit described above, no material weaknesses in the internal control structure
involving financial and administrative functions came to our attention. Some minor problems
were verbally discussed with management. The office concurred with these findings and is
implementing our suggestions.


CLEARANCE PROCESS (AUDIT 323)
Several Commission organizations must “clear” a separating employee before the final payroll
check is processed. The objective of the clearance process is to ensure that all Commission
property has been returned and that various authorizations are canceled.
Our audit objectives were to evaluate compliance with the Commission’s policy for clearing
separating employees, and to identify any needed improvements. We found that the clearance

1
    Negative assurance means that no material internal control weaknesses came to our attention
    during our limited audit.
S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2000
                                                                                     Page      6

process for separating employees needed to be improved. Required steps were not always
followed, including collection of government passports; deletion of network accounts, and
repayment of bonuses under continuing service agreements. Also, the clearance process was not
extended to contractors. We made appropriate recommendations for correcting the weaknesses.


AUDIT FOLLOW-UP PROCEDURES (AUDIT 325)
The Executive Director is the Commission’s designated audit follow-up official and makes the
final decision on whether the Commission concurs with audit recommendations. That Office
also decides the disposition of audit recommendations (e.g., pending, completed) based on
submissions from the affected organization(s), updates the Audit Recommendation Tracking
System (shared with the Office of Inspector General), and prepares the management response to
the Semiannual Report to Congress.
Our objective was to determine whether the audit follow-up procedures were efficient and
effective, and complied with OMB Circular A-50. We found that the procedures were efficient
and effective, and complied with the OMB Audit Follow-up Circular (A-50).


ETHICS RULES – VOLUNTARY CONTRIBUTIONS (INVESTIGATIVE
MEMORANDA ON MANAGEMENT ISSUES G314)
In the course of an investigation, we became aware of confusion about voluntary contribution
rules applying to employees and their supervisors. We recommended that “best practices”
guidance on voluntary contributions rules (which govern, for example, a going-away party for a
manager) would be helpful for Commission staff. Management agreed and is drafting
appropriate guidance.


SECURITY CAMERAS (INVESTIGATIVE MEMORANDA ON
MANAGEMENT ISSUES G311 AND G307)
The Commission uses video cameras and recorders to help secure various areas of Commission
property. In the course of two separate investigations, we became aware of weaknesses in the
procedures used to place and maintain the video equipment. We made recommendations to
management. Management agreed and is taking corrective action.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                  OCTOBER 31, 2000
                                                                                        Page       7

TRAVEL VOUCHERS (AUDIT MEMORANDUM 20)
The Office of Comptroller processes approximately 11,000 travel vouchers each year. Recent
implementation of a LAN based travel management system in several Commission units
improved processing of these vouchers.
Because of the limited scope of our review, we issued an audit memorandum rather than a report.
 We found that voucher processing time in calendar year 2000 was meeting statutory deadlines.
The memorandum made several recommendations to further improve the processing of travel
vouchers. The recommendations focused on improvements to guidance (e.g., updating the guide
to Commission travelers, linking to the GSA website on travel).



                                     Investigative Program
Nineteen investigations were closed during the period (one of which was a joint investigation
with the Federal Bureau of Investigation). Four subjects were referred to the Commission; five
cases were referred to the Department of Justice. Also during the period, the subject of one
investigation was terminated, while the subject of another investigation resigned. In addition,
one employee resigned prior to completion of the investigation, and one contract employee was
taken off the Commission contract during an investigation. Seven subjects, referred to
Commission management during this and prior periods, are awaiting disposition. The
Investigation Program section below describes the significant cases further. The most significant
cases closed during the period are described below.


MISUSE OF COMPUTER RESOURCES
The Office developed evidence that several Commission employees had used the Commission’s
e-mail system to transmit and receive sexually explicit e-mails. There was also evidence that
one of these employees had used a government computer to access Internet sites for personal
purposes, including visiting sexually explicit websites. The Department of Justice declined
prosecution. One employee was counseled; administrative action is pending with respect to five
employees.
In another investigation, we found evidence that a contract employee had used a government
computer to access sexually explicit websites. Prior to the completion of the investigation, the
employee was removed from the contract. The Department of Justice declined prosecution.
Another investigation disclosed that a Commission staff member had used a government
computer to access the Internet for various personal purposes, including visiting sexually explicit
websites. The employee resigned before the investigation was completed.



S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2000
                                                                                         Page     8

POST-EMPLOYMENT VIOLATION
The Office investigated an allegation that a former Commission official had violated a federal
conflict of interest statute by testifying as an expert witness for the defense in a matter in which
he had personally and substantially participated as a Government employee. The evidence failed
to substantiate the allegation.


UNAUTHORIZED DISCLOSURE OF NON-PUBLIC INFORMATION
The Office investigated an allegation that a former staff member, while employed by the
Commission, had used a non-public database to obtain information for a future client. The
evidence failed to substantiate the allegation.


FALSE STATEMENTS AND CONSPIRACY
The Office developed evidence that two Commission employees falsified time and attendance
records and made false statements to management. The evidence also showed that the
employees tampered with evidence, asked other employees to lie to management and conspired
to make false statements and to conceal their misconduct. The Department of Justice declined
prosecution. Administrative action is pending.

                                      Significant Problems
No new significant problems were identified during this period.



              Significant Problems Identified Previously

SENSITIVE INFORMATION
In a previous period, we reported the custody of sensitive information as a significant problem.
Since then management has established a task force to develop corrective actions, issued agency-
wide policy, and hired a security consultant to assist in a more comprehensive review of overall
security.
The Commission recently received the consultant’s final report. The task force is now reviewing
the consultant’s recommendations, assessing the inherent risks in each Commission
organizational unit, and developing guidance for implementing the new Commission policy.
The task force’s work is scheduled for completion in November 2000. At this point, we believe


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 31, 2000
                                                                                         Page      9

that most Commission organizations are waiting for additional guidance from the task force
before fully implementing the new Commission policy on sensitive information.


INFORMATION RESOURCES MANAGEMENT
We previously identified information resources management as a significant problem based on
prior audits, investigative work, and management studies that identified significant weaknesses
in many aspects of the Commission’s management of information resources.
Since then, the Commission has taken many positive steps to improve the management of
information resources throughout the Commission. Some of the initiatives were:
    •    Restructuring the Office of Information Technology to facilitate effective management of
         information resources,
    •    Establishing a Capital Planning Committee to prioritize information technology projects
         based on criticality, risk, cost, and expected returns, and
    •    Developing a configuration control structure and an integrated information technology
         planning, budgeting, and performance measurement process to better support the
         Commission’s mission and strategic direction.
Although we have not performed an audit to evaluate the effectiveness of these initiatives, we
believe that the Commission has made significant progress in achieving full compliance with
requirements of the Clinger-Cohen Act. However, many pending audit recommendations need
to be implemented. We intend to maintain our oversight of the Commission’s management of
information resources (including piloting a new qualitative risk assessment methodology to
identify operational information technology risks).


COLLECTION OF FILING FEES
Starting in 1996, we have identified the Commission’s collection of filing fees as a significant
problem. Since then, statutory changes have eliminated many of the fees most at risk.
Moreover, Commission management has made significant progress in correcting the most
serious weaknesses (e.g., a lockbox depository is now used). However, final corrective actions
are awaiting the implementation of a new computerized filing fee collection system.
The strengthening of automated controls related to filing fee collection has been awaiting
modernization of the EDGAR system (which receives and disseminates filings from public
companies). EDGAR Release 8.0, scheduled for April-May 2001, is planned to implement a
new filing fee collection system. The new system will use MOMENTUM, a commercial off-the-
shelf software package, which is designed to have adequate financial controls. Until then, the
overall control structure will continue to fail to provide adequate accountability over filing fees.


S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                     OCTOBER 31, 2000
                                                                                        Page 10


                                     Access to Information
The Office of Inspector General has received access to all information required to carry out its
activities. No reports to the Chairman, concerning refusal of such information, were made
during the period.



                                              Other Matters

EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of its
Financial Institutions Regulatory Committee, and serves as the ECIE member of the Integrity
Committee established by Executive Order No. 12993.
The Counsel to the Inspector General is an active member of the PCIE Council of Counsels. The
Council considers legal issues relevant to the Inspector General community.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                    OCTOBER 31, 2000
                                                                                    Page 11




                                          Questioned Costs
                                                                              DOLLAR VALUE
                                                                             (IN THOUSANDS)

                                                                     UNSUPPORTED      QUESTIONED
                                                           NUMBER      COSTS            COSTS
A          For which no management decision has
           been made by the commencement of the
           reporting period                                      0           0                0

B          Which were issued during the reporting
           period
                                                             0           0                0

           Subtotals (A+B)                                       0        0                   0

C          For which a management decision was                   0        0                   0
           made during the reporting period

    (i)    Dollar value of disallowed costs                      0        0                   0

    (ii)   Dollar value of costs not disallowed                  0       0                    0

D          For which no management decision has                  0       0                    0
           been made by the end of the period

           Reports for which no management                       0       0                    0
           decision was made within six months of
           issuance




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                 OCTOBER 31, 2000
                                                                                    Page 12




    Recommendations That Funds Be Put To Better Use
                                                                       DOLLAR VALUE
                                                            NUMBER    (IN THOUSANDS)
A               For which no management decision has
                been made by the commencement of the
                                                                  0             0
                reporting period
B               Which were issued during the reporting
                period
                                                              0             0

                Subtotals (A+B)                                   0             0
C               For which a management decision was               0             0
                made during the period
      (i)       Dollar value of recommendations that were         0             0
                agreed to by management
            -   Based on proposed management action               0             0
            -   Based on proposed legislative action              0             0
      (ii)      Dollar value of recommendations that were         0             0
                not agreed to by management
D               For which no management decision has
                been made by the end of the reporting
                                                                  0             0
                period
                Reports for which no management decision
                was made within six months of issuance
                                                                  0             0




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N               OCTOBER 31, 2000
                                                                                      Page 13




                Reports with No Management Decisions
         Management decisions have been made on all audit reports issued before the beginning
         of this reporting period (April 1, 2000).



                          Revised Management Decisions
         No management decisions were revised during the period.



    Agreement with Significant Management Decisions
         The Office of Inspector General agrees with all significant management decisions
         regarding audit recommendations.




S E C U R I T I E S & E X C H AN G E C O M M I S S I O N                   OCTOBER 31, 2000
                   MANAGEMENT RESPONSE OF
           THE SECURITIES AND EXCHANGE COMMISSION
 ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL
      FOR THE PERIOD OCTOBER 1, 1999 THROUGH MARCH 31, 2000


Introduction

    The Semiannual Report of the Inspector General (IG) of the Securities and Exchange
Commission (SEC) was submitted to the Chairman on April 28, 2000 as required by the
Inspector General Act of 1978, as amended. The report has been reviewed by the Chief of Staff,
General Counsel, Executive Director, and Director of the Division of Enforcement. The
management response is based on their views and consultation with the Chairman.

      The management response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                       Section I
                  Comments Keyed to Significant Sections of the IG Report

A. Audit Program

     During the reporting period, the IG issued 10 audit reports. Management generally agreed
with the findings and recommendations in the IG’s reports.

     In addition to audits performed by the agency’s IG, the General Accounting Office (GAO)
actively reviewed program and administrative functions of the SEC. A complete listing of all
GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     No new significant problems were identified during this period.

C. Response to Significant Problems Previously Identified

     The IG’s semiannual report discusses three significant problems that were previously
identified. An update on each problem follows.

     Sensitive Information. Safeguarding sensitive information is a critical activity at the SEC,
and aggressive steps are being taken to enhance our controls in this area. A task force of senior
Commission staff is continuing efforts to enhance the effectiveness of the Commission’s controls
over sensitive information. As a result of the task force’s efforts, a policy has been issued for
safeguarding sensitive non-public information and new building access procedures have been
implemented for visitors. In addition, a consultant has been hired to conduct a review of
sensitive information security at the Commission. The consultant has completed the review and
is preparing its recommendations.
     Collection of Filing Fees. The IG’s audit, released in February 1996, confirmed the
Commission’s previous assessment that the agency’s fee and filing system (EFFS) was not
materially in conformance with the Federal Managers’ Financial Integrity Act. Since the audit
was released, significant progress has been made in correcting the most serious weaknesses (i.e.,
those related to separation of duties, access controls, audit trails, and financial information
within the fee system). The separation of duties became even more effective with the transition
to mandated electronic filing in May 1996 and the elimination of the user fees collected under
the Independent Offices Appropriations Act of 1952 in October 1996.

     Some corrective actions will not be fully implemented until the current fee collection
system is redesigned. The fee system is being redesigned and implemented under the EDGAR
modernization contract. A group of SEC managers and users is working with the contractors and
developers to ensure that the new fee system contains adequate financial controls and meets the
agency’s and filers’ requirements.

     Information Resources Management (IRM). The SEC continues to make progress in
correcting the weaknesses in the information technology (IT) area. Since the completion of the
agency’s Year 2000 conversion, the Office of Information Technology has devoted more
attention to improving contract management, clarifying policies and procedures, and
strengthening IT planning.

     The office has taken a number of steps to improve contract management. It is consolidating
a number of requirements and is matching these requirements to more appropriate contract
vehicles. It is using a new financial database to improve management of contract data. It is
taking steps to ensure that all program managers receive appropriate training in contract
management. It is also incorporating recommendations from a recent independent review of its
management of outsourced customer service operations.

     The office has made significant progress clarifying IT policies and procedures to both
internal and external stakeholders. Internally, an office-wide committee has begun following
procedures for reviewing, formalizing and communicating all policies and procedures.
Externally, the office has posted additional technical bulletins to its website, and has presented
guidance to its user community in written memoranda and in interactive monthly conferences.

     The Commission is also making progress in IT planning. Commission management has
established a senior level information technology committee to address high level IT policy
issues and to oversee three key areas of IT management: planning, control, and evaluation of IT
investments. In the area of planning, the office has dedicated managerial resources to
formulating specific goals, crafting business plans, and creating a useful balance scorecard. In
the area of control, the office is continuing to improve IT security measures, and is redesigning
its budget system to enhance fiscal discipline. In the area of evaluation, the office has assembled
a performance measurement team to follow-up on recommendations from independent reviews
                                                 2
of Helpdesk management and contract management, and to conduct further assessments of
organizational efficiency and effectiveness.

D. IG Recommendations Concerning Use of Funds

     None.

E.   Reports with No Management Decisions

     Final management decisions have been made on all audits issued prior to the beginning of
the reporting period (October 1, 1999).

F.   Revised Management Decisions

     No management decisions were revised during the reporting period.




                                               3
SEC Management Response to
Semiannual IG Report
October 1, 1999 – March 31, 2000


                                          SECTION II
                                       Disallowed Costs
                                      As of March 31, 2000


                                                                      Dollar Value
                                                             Number   (in thousands)

A.    For which final action has
      not been taken by the
      commencement of the
      reporting period                                        0              $0

B.    On which management decisions
      were made during the reporting
      period                                                  0              $0

      (Subtotal A+B)                                          0              $0

C.    For which final action was
      taken during the reporting
      period                                                  0              $0

      (i)    Recovered by management                          0              $0

      (ii)   Disallowed by management                         0              $0

D.    For which no final action has
      been taken by the end of the
      reporting period                                        0              $0




                                               4
SEC Management Response to
Semiannual IG Report
April 1, 1999 - September 30, 1999


                                           SECTION III
                                      Funds Put to Better Use
                                       As of March 31, 2000


                                                                   Dollar Value
                                                          Number   (in thousands)

A.     For which final action has
       not been taken by the
       commencement of the
       reporting period                                     0             $0

B.     On which management decisions
       were made during the reporting
       period                                               0             $0

C.     For which final action was
       taken during the reporting
       period                                               0             $0

       (i)    Dollar value of recom-
              mendations that were
              agreed to by management                       0             $0

       (ii)   Dollar value of recom-
              mendations that management
              has subsequently concluded
              should/could not be
              implemented or completed                      0             $0

D.     For which no final action has been
       taken by the end of the reporting period             0             $0




                                                  5
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         October 1, 1999 – March 31, 2000

                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                    As of March 31, 2000


                                                   Funds Put to
                                                    Better Use        Questioned Costs
Audit #   Audit Title             Issued       (in thousands)          (in thousands) Reason Final Action Not Taken

130       Management of the
          Data Center             11/18/89            $0                   $0            Since the completion of the Y2K
                                                                                         conversion, more attention has been
                                                                                         devoted to improving the weaknesses in
                                                                                         the information technology area. Efforts
                                                                                         are continuing. (See “Response to
                                                                                         Significant Problems Previously
                                                                                         Identified” section above.)
143       Information Resources
          Management              3/27/91             $0                   $0            Same as above.

159       Audit of Local Area
          Networks                2/16/93             $0                   $0            The remaining pending recommendation
                                                                                         concerns the implementation of prior
                                                                                         audit and contractor recommendations.
                                                                                         Each of the prior recommendations is
                                                                                         being addressed under its original
                                                                                         report.




                                                                  6
                                                                                             SEC Management Response to
                                                                                             Semiannual IG Report
                                                                                             October 1, 1999 – March 31, 2000



                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                       As of March 31, 2000


                                                      Funds Put to
                                                       Better Use         Questioned Costs
Audit #   Audit Title                  Issued        (in thousands)       (in thousands)         Reason Final Action Not Taken

201       Controls Over
          Commercial Databases         6/10/94              $0                  $0               See explanation for audit #130.

202       Investor Complaints
          and Inquiries                9/29/94              $0                  $0               Efforts to update the CFR to reflect
                                                                                                 the current mission of the SEC's
                                                                                                 Office of Investor Education and
                                                                                                 Assistance have been delayed due
                                                                                                 to other priorities.

220       IRM Planning and Execution     3/26/96                 $0                  $0          See explanation for audit #130.

225       Collection of Filing Fees      2/8/96                  $0                  $0          The EFFS system is being redesigned and
                                                                                                 implemented under the three-year
                                                                                                 EDGAR modernization contract.




                                                                      7
                                                                                               SEC Management Response to
                                                                                               Semiannual IG Report
                                                                                               October 1, 1999 – March 31, 2000



                                                            SECTION IV
                                                Open Audit Reports Over One Year Old
                                                       As of March 31, 2000


                                                      Funds Put to
                                                       Better Use          Questioned Costs
Audit # Audit Title                    Issued        (in thousands)        (in thousands)      Reason Final Action Not Taken

220     IRM Planning and Execution     3/26/96              $0                   $0            See explanation for audit #130.

225     Collection of Filing Fees      2/8/96               $0                   $0            The EFFS system is being redesigned
                                                                                               and implemented under the three-year
                                                                                               EDGAR modernization contract.

226     Contingency Plans for
        PABX and Data Center 7/31/95        $0                        $0         A contingency plan for the telephone system has
                                                                                               been tested by real events. The plan is
                                                                                               being properly documented for future
                                                                                               reference.

238     International Telephone
        Service                        8/27/96              $0                   $0            The corrective action plan for the
                                                                                               remaining pending recommendation is
                                                                                               being re-examined as a result of the
                                                                                               IG’s recently issued report on
                                                                                               telecommunications vulnerabilities.

                                                                  8
                                                                                        SEC Management Response to
                                                                                        Semiannual IG Report
                                                                                        October 1, 1999 – March 31, 2000

                                                        SECTION IV
                                            Open Audit Reports Over One Year Old
                                                  As of September 30, 1999


                                                  Funds Put to
                                                   Better Use        Questioned Costs
Audit # Audit Title                Issued        (in thousands)      (in thousands)     Reason Final Action Not Taken

243     SECOA Local Area Network   3/21/97              $0                  $0          See explanation for audit #130.

244     Office of Filings &
        Information Services       3/20/97              $0                  $0          The EFFS redesign requirements have
                                                                                        been included with the EDGAR
                                                                                        modernization effort, which is
                                                                                        expected to occur over a three-year
                                                                                        period. Meanwhile, controls have
                                                                                        been implemented to address the IG's
                                                                                        concerns.

250     Enhancing Excellence--
        Integrity Program          1/22/97              $0                  $0          A substantial number of the
                                                                                        recommendations have been
                                                                                        implemented. Several policy
                                                                                        documents are still being developed.




                                                              9
                                                                                          SEC Management Response to
                                                                                          Semiannual IG Report
                                                                                          October 1, 1999 – March 31, 2000


                                                          SECTION IV
                                              Open Audit Reports Over One Year Old
                                                     As of March 31, 2000


                                                    Funds Put to
                                                     Better Use        Questioned Costs
Audit # Audit Title                  Issued        (in thousands)      (in thousands)     Reason Final Action Not Taken

253     Administrative Proceedings   11/7/97              $0                  $0          An adjudicatory conference will be
                                                                                          held once there is an experience factor
                                                                                          to measure the overall results of the
                                                                                          NASD’s revised disciplinary
                                                                                          procedures.

257     Client Server                9/9/97               $0                  $0          See explanation for audit #130.

259     Review of Filings--
        Comment Letter Process       2/2/98               $0                  $0          Action on some of the recommen-
                                                                                          dations is complete. Work on the
                                                                                          remaining recommendations was
                                                                                          delayed due to unusually heavy
                                                                                          workload as a result of increased
                                                                                          stock market activity.

260     Value Engineering Program    5/2/97               $0                  $0          Guidance for the value engineering
                                                                                          program will be published this month.



                                                               10
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         October 1, 1999 – March 31, 2000


                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                    As of March 31, 2000


                                                   Funds Put to
                                                    Better Use        Questioned Costs
Audit #    Audit Title              Issued        (in thousands)      (in thousands)     Reason Final Action Not Taken

262       Automation of Records
          Management                9/29/97              $0                  $0          See explanation for audit #130.

269       Database Administration   1/5/98               $0                 $0           See explanation for audit #130.

271       Property System           1/5/98               $0                 $0           A task force has been established
                                                                                         to address the recommendations
                                                                                         in this audit. The task force’s
                                                                                         efforts are continuing.

272       Commission Review
          of SRO Rules              7/14/98              $0                 $0           A new strategy is being formulated
                                                                                         to store SRO rule filings on
                                                                                         newly acquired equipment.

273       Review of Investment
          Company Filings           6/26/98              $0                 $0           The EDGAR modernization
                                                                                         efforts are expected to occur over
                                                                                         a three-year period.


                                                              11
                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 1999 – March 31, 2000



                                                         SECTION IV
                                             Open Audit Reports Over One Year Old
                                                    As of March 31, 2000


                                                       Funds Put to
                                                         Better Use     Questioned Costs
Audit # Audit Title               Issued              (in thousands)      (in thousands)       Reason Final Action Not Taken

276     Enforcement Action
        Memo Process              3/18/99                    $0                     $0         A document addressing the
                                                                                               remaining recommendations is
                                                                                               under review. It will be
                                                                                               completed by the end of June.

284     International Technical
        Assistance                10/27/98                   $0                     $0         The SEC website is being
                                                                                               revamped.

287     Boston District Office    10/23/98                   $0                     $0         Most of the recommendations
                                                                                               have been implemented.
                                                                                               A regulation that addresses the
                                                                                               recommendations concerning
                                                                                               telephone reimbursements is
                                                                                               expected to be issued in June.




                                                              12
                                                                                         SEC Management Response to
                                                                                         Semiannual IG Report
                                                                                         October 1, 1999 – March 31, 2000



                                                       SECTION IV
                                           Open Audit Reports Over One Year Old
                                                  As of March 31, 2000


                                                     Funds Put to
                                                       Better Use     Questioned Costs
Audit # Audit Title             Issued              (in thousands)      (in thousands)       Reason Final Action Not Taken

M5      Screening Prospective
        Employees               1/19/96                    $0                     $0         The formal policy for screening
                                                                                             employees is being reviewed
                                                                                             internally.
M9      Food Service at the
        Ops Center & Annex      9/22/98                    $0                     $0         A meeting has been scheduled
                                                                                             with the Blind Association to
                                                                                             discuss issues associated with the
                                                                                             vending machines.

M11   Part-time Employment      10/21/98                   $0                     $0         A policy document is being
      Program                                                                                developed.

M12   Control of Computer
      Equipment                 12/29/98                   $0                     $0         See explanation for #130.

M14   Contingency Testing       3/15/99                    $0                     $0         See explanation for #130.



                                                            13
                                                                            APPENDIX A


                           General Accounting Office Audit Activity
                       Involving the Securities and Exchange Commission


Reports Issued October 1, 1999 – March 31, 2000

1.     Long-Term Capital Management: Regulators Need to Focus Greater Attention on Systemic
       Risk, GGD-00-3 (October 1999)

2.     Year 2000: Insurance Regulators Have Accelerated Oversight, But Some Gaps Remain,
       GGD-00-42 (December 1999)

3.     Financial Regulatory Coordination: The Role and Functioning of the President’s Working
       Group, GGD-00-46 (January 2000)

4.     Responses to Questions Concerning Long-Term Capital Management and Related Events,
       GGD-00-67R (February 2000)

10.    Securities Exchange Act: Review of Reporting Under Section 10A, AIMD-00-54R
       (February 2000)

6.     The Euro: Implications for the United States—Answers to Key Questions, GGD/NSIAD-00-
       105 (March 2000)

10.    Securities Pricing: Progress and Challenges in Converting to Decimals, T-GGD-00-96
       (March 2000)


Audits In Progress as of March 31, 2000

1.     SEC Oversight of SBA Section 7(a) Loans (233543): A review of the secondary market
       for SBA Section 7(a) loans.

2.     Securities Arbitration (233590): A review of the arbitration process in the securities
       industry.

3.    Mutual Fund Fees and Expenses (233592): A study of mutual fund fees and expenses,
      including a determination of how fees are set, whether these costs are reasonable, whether
      they are adequately disclosed to investors and understood by them, the impact of fees and
      other charges on performance and net return, and whether mutual funds are being run for
      the benefit of their shareholders.
4.    Year 2000 Costs and Future Funding (511725): A government-wide review of year 2000
      costs and funding requirements.

5.    Small Business Access to Equity Capital (233620). A study comparing small business
      access to equity capital and the cost of that capital relative to medium or large businesses.

6.    Security Protection for Officials (240357). A review of the security protection for
      government officials.

7.    CFTC Shad-Johnson Accord (233618). A study of the Commodity Exchange Act’s
      prohibition on the trading of futures contracts on individual securities and narrowly based
      security indexes.

8.    On-line Trading Firms (233613). A review of on-line trading.

9.    Day Trading (233611). A review involving day trading.

10.   Regulatory Information Sharing and Oversight Issues within the Insurance Industry
      (233631). A review of regulatory information sharing and oversight issues within the
      insurance industry in light of the alleged fraudulent investment activities perpetrated
      among several insurance companies and masterminded by Martin Frankel.

11.   Disclosure and Reporting Requirements of Foreign Government-Controlled Entities
      (711479). A review to identify U.S. government sources of data on these foreign
      government-controlled entities of concern and assess the feasibility of determining if any
      of these entities have connections with the U.S. equity markets.

12.   Foreign Investments in U.S. Companies Reported to CFIUS. A review of the
      implementation of the Defense Production Act for voluntary notifications of foreign
      investments in U.S. companies to the Committee on Foreign Investments in the United
      States (CFIUS).




                                                 2
